Record Press Inc., 229 West 36th Street, New Yark, N.Y. IDDIB•
Tel: (212) 618-4949• Fax Na. (212) 608-3141

STATE OF NEW YORK.
SS:

88302

AFFIDAVIT DF SERVICE

COUNTY OF NEW YORK
Howard Daniels being duly sworn. deposes and says that deponent is not party to the action. and is over 18 years of age.
That on the 1st day of March 2021 deponent served 3 copies of the within
BRIEF FDR THE NEW YDRK CITY BAR ASSDCIATIDN
AS AMICUS CURIAE IN SUPPORT OF NEITHER PARTY
upon the attorneys at the addresses below. and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY

Robert N. Hochman
Arnold 6 Porter LLP
SOI Massachusetts Ave .. NW
Washington. DC 200DI
(202) 842-5462

Robert N. Hochman
Sidley Austin. LLP
One South Dearborn Street
Chicago. IL 80803
(312) 853-2838

Attorneys for Respondent

Attorneys for Petitioner

I. Howard Daniels. declare under penalty of perjury under the laws of the United States of America that the foregoing is true and
correct. executed on March I. 2021. pursuant to Supreme Court Rule 28.5(c). All parties required to be served. have been served.

d1zv<u~ J) ~ .
Howard Daniels

Swarn ta me this

March I. 2021
Alessandra Kane
Notary Public. State of New York
No.OIKAS34052I
Uualified in Richmond County
Commission Expires April 18. 2024
,,l'f.Jul~"'7~

Notary Public

Case Name: Minerva Surgical. Petitioner v. Hologic. Inc.

Docket/Case Na. 20-440

